TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Evaluation of Efforts to Ensure
                         Eligible Individuals Received Their
                            Economic Stimulus Payment



                                           April 24, 2009

                              Reference Number: 2009-40-069




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 24, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Evaluation of Efforts to Ensure Eligible
                                 Individuals Received Their Economic Stimulus Payment
                                 (Audit # 200840030.03)

 This report presents the results of our review to assess the adequacy of the Internal Revenue
 Service’s (IRS) actions to ensure eligible individuals received an economic stimulus payment. In
 addition, we evaluated the controls in place to ensure economic stimulus payments were not
 issued after December 31, 2008, as mandated by the Economic Stimulus Act of 2008.1

 Impact on the Taxpayer
 Signed on February 13, 2008, the Economic Stimulus Act of 2008 was passed to energize the
 national economy. The IRS initiated a number of actions in an attempt to ensure as many
 eligible individuals as possible received their economic stimulus payment. As a result, more
 than 119 million economic stimulus payments were issued totaling more than $96 billion. In
 addition, the IRS ensured economic stimulus payments were not issued after December 31, 2008,
 as mandated by the Economic Stimulus Act of 2008.

 Synopsis
 The economic stimulus payment was a refundable credit of taxes paid in Tax Year 2008. To
 ensure individuals benefited from the payments as soon as possible, the Economic Stimulus Act
 of 2008 provided for an advance payment of the credit. The IRS estimated the credit using

 1
     Pub. L. 110-185,122 Stat. 613.
                   Evaluation of Efforts to Ensure Eligible Individuals Received
                                Their Economic Stimulus Payment



information on Tax Year 2007 tax returns and issued advance payments in Calendar Year 2008
in the form of an economic stimulus payment. The first economic stimulus payments were
issued via direct deposit on April 28, 2008.
Our review identified that significant efforts were taken
to ensure eligible individuals received their economic            IRS actions resulted in the
                                                                    issuance of more than
stimulus payment. These efforts included:
                                                                119 million economic stimulus
•   Establishing a process to timely resolve returns             payments totaling more than
                                                                          $96 billion.
    requiring manual processing. The IRS resolved the
    majority of the 455,517 duplicate filed stimulus-only
    tax returns it had identified as of November 29,
    2008. In addition, the IRS ensured the majority of approximately 316,000 injured spouse
    claims and 3.5 million Amended U.S. Individual Income Tax Returns (Forms 1040X)
    received by November 29, 2008, were resolved.
•   Initiating outreach efforts to retired individuals and veterans. These efforts resulted in
    approximately 11.8 million Social Security and Veterans beneficiaries receiving about
    $4.6 billion in economic stimulus payments.
•   Initiating outreach efforts to assist individuals whose stimulus payments were returned as
    undeliverable. These efforts resulted in 95,660 individuals who previously had undelivered
    stimulus payments receiving an estimated $82 million in economic stimulus payments.
•   Developing and implementing programming to ensure members of the military received the
    stimulus payments to which they were entitled. The IRS initiated two efforts to provide
    military taxpayers with their economic stimulus payment. These efforts resulted in
    14,393 individuals in the military receiving $15.2 million in economic stimulus payments.
•   Assisting individuals in resolving invalid Social Security Number issues that disqualified the
    individuals from receiving a stimulus payment. IRS assistance resulted in the resolution of
    the invalid Social Security Number issue for 52,575 individuals who received $64.8 million
    in economic stimulus payments.
In addition, IRS management initiated actions to address errors we brought to their attention.
Addressing the errors we identified resulted in 274,611 individuals receiving $105.5 million in
economic stimulus payments to which they were entitled. These actions included issuing
recovery payments to individuals whose child portion of the economic stimulus payment was not
accurately computed and issuing a recovery payment to individuals who incorrectly reported
their income.




                                                                                                 2
                  Evaluation of Efforts to Ensure Eligible Individuals Received
                               Their Economic Stimulus Payment



Furthermore, the Act prohibits the IRS from issuing payments after December 31, 2008. The
IRS instructed taxpayers to file their Tax Year 2007 tax return no later than October 15, 2008, to
ensure all tax returns eligible for an advance stimulus payment were received and processed by
December 31, 2008. To ensure payments were not issued, the IRS developed computer
programs to identify taxpayer accounts with an economic stimulus payment that was unable to be
                                         issued to the taxpayer. IRS programs identified 435,321
                                         taxpayer accounts which contained an economic stimulus
      The IRS ensured economic
                                         payment credit that was not issued to the taxpayer. Our
     stimulus payments were not
   issued after December 31, 2008,       independent identification of accounts that contained an
    as mandated by the Economic          economic stimulus payment credit confirmed the accuracy
         Stimulus Act of 2008.           of IRS programs in identifying these accounts. In
                                         addition, we confirmed that the IRS correctly reversed
                                         these economic stimulus payment credits to ensure the
associated stimulus payments would not be issued after December 31, 2008.

Recommendation
We made no recommendations in this report. During the course of the review, we immediately
provided IRS management with concerns we identified. The IRS initiated actions to address our
concerns, resulting in individuals receiving economic stimulus payments to which they were
entitled. Key IRS management officials reviewed this report prior to issuance and agreed with
the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the audit results. Please
contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




                                                                                                  3
                         Evaluation of Efforts to Ensure Eligible Individuals Received
                                      Their Economic Stimulus Payment




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Significant Efforts Were Taken to Ensure Eligible Individuals
          Received Their Economic Stimulus Payment...............................................Page 3
          The IRS Ensured Economic Stimulus Payments Were Not Issued
          After December 31, 2008..............................................................................Page 6

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measures...............................................................Page 11
      Evaluation of Efforts to Ensure Eligible Individuals Received
                   Their Economic Stimulus Payment




                    Abbreviations

IRS           Internal Revenue Service
TY            Tax Year
                        Evaluation of Efforts to Ensure Eligible Individuals Received
                                     Their Economic Stimulus Payment




                                        Background

The economic stimulus payment was a refundable credit of taxes paid in Tax Year (TY) 2008.
To ensure individuals benefited from the payments as soon as possible, the Economic Stimulus
Act of 20081 provided for an advance payment of the
credit. The Internal Revenue Service (IRS) estimated          The Economic Stimulus Act
the credit using information on TY 2007 tax returns and     of 2008 was passed to energize
issued advance payments in Calendar Year 2008 in the        the national economy through
form of an economic stimulus payment. The first                 the issuance of stimulus
economic stimulus payments were issued via direct               payments to individuals.
deposit on April 28, 2008.
The Act contains specific filing and income requirements that an individual must meet to qualify
for an economic stimulus payment. These include:
•      A 2007 tax return with a valid Social Security Number was filed.
•      An income tax liability of at least $3,000 in qualifying income – Qualifying income includes
       salaries and wages, tips, net self-employment earnings, nontaxable combat pay, some Social
       Security benefits, and disability payments to veterans.
•      Gross income of $8,570 ($17,500 for joint) and a net income tax liability greater than zero –
       Net income tax liability is the income tax, including the alternative minimum tax, less
       certain tax credits, except for the child tax credit.
In addition, there were specific income limitations involved with computing the stimulus
payment. The stimulus payment was phased out as income increased. Individuals with Adjusted
Gross Incomes more than $75,000 ($150,000 for married couples) had their tax rebate reduced
by 5 percent of the income above the Adjusted Gross Income threshold. This phase-out applied
to the total rebate (both for individual and children). For most individuals, the amount of the
stimulus payment received was dependent on their income tax liability. Single taxpayers
generally received the greater of $300 or their actual tax liability up to $600 ($600 and $1,200
for couples). Anyone with qualifying children also received an additional $300 per child. A
qualifying child is any child who is younger than age 17 as of December 31, 2007, and who can
be claimed for the purposes of the Child Tax Credit.
The Act prohibits the IRS from issuing payments after December 31, 2008. The IRS instructed
taxpayers to file their TY 2007 tax return no later than October 15, 2008, to ensure all tax
returns eligible for an advance stimulus payment were received and processed by

1
    Pub. L. 110-185,122 Stat. 613.
                                                                                              Page 1
                  Evaluation of Efforts to Ensure Eligible Individuals Received
                               Their Economic Stimulus Payment



                                      December 31, 2008. As a result of this provision in the
     The Economic Stimulus Act        law, the IRS had to identify and reverse all economic
    prohibits the IRS from issuing    stimulus transactions that were not issued to taxpayers by
   an economic stimulus payment       December 31, 2008, to prevent them from being issued to
      after December 31, 2008.        taxpayers after that date.
                                       Eligible individuals who did not receive an economic
stimulus payment by December 31, 2008, can still claim the credit on their TY 2008 tax return
(generally filed between January and April 2009). In addition, individuals who qualify for a
larger payment as a result of changes between their TY 2007 and TY 2008 tax returns will also
receive the additional credit when they file their TY 2008 return. Individuals who received more
than they would have if the payment had been calculated using their TY 2008 return will not be
asked to pay back the excess. The stimulus payment will not increase the amount of tax an
individual owes or reduce an individual’s refund for TY 2008.
This review was performed at the IRS National Headquarters of the Wage and Investment
Division in Atlanta, Georgia, and the Modernization and Information Technology Services
organization in Washington, D.C., during the period August 2008 through February 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 2
                       Evaluation of Efforts to Ensure Eligible Individuals Received
                                    Their Economic Stimulus Payment




                                        Results of Review

Significant Efforts Were Taken to Ensure Eligible Individuals Received
Their Economic Stimulus Payment
The IRS initiated a number of actions in an attempt to ensure as many eligible individuals as
possible received their economic stimulus payment. As a result, more than 119 million
economic stimulus payments were issued totaling more than $96 billion. Actions included:
•   Establishing a process to timely resolve returns requiring manual processing. In
    August 2008, the IRS modified its Accounts Management function processes to ensure
    individuals who filed duplicate tax returns, Amended U.S. Individual Income Tax Returns
    (Form 1040X), and injured spouse claims received their stimulus payments by December 31,
    2008. The IRS established a special function at its Andover, Massachusetts, Campus2 to
    resolve duplicate filed stimulus-only tax returns.3 The IRS resolved the
    majority of the 455,517 duplicate filed stimulus-only tax returns it had identified as of
    November 29, 2008. In addition, the IRS ensured the majority of approximately
    316,000 injured spouse claims and 3.5 million Forms 1040X received between
    January 5, 2008, and November 29, 2008, were processed to enable individuals to receive
    their economic stimulus payment.
•   Initiating outreach efforts to retired individuals and veterans. In March 2008, the IRS
    mailed to more than 20 million individuals who received Social Security and Veterans
    benefits a new tax package, Information About Economic Stimulus Payments for Social
    Security, Veterans, and Other Beneficiaries (Package 1040A-3), to enable these individuals
    to file the tax return necessary to receive their stimulus payment. The IRS initiated a second
    mailing of Package 1040A-3 in July 2008 to 5.2 million of these individuals identified as not
    yet filing a tax return to claim their economic stimulus payment. Our analysis of the returns
    processed as of November 7, 2008, indicated that 28 percent of the 5.2 million individuals
    subsequently filed a tax return. Overall, 59 percent of the approximately 20 million Social
    Security and Veterans beneficiaries identified by the IRS filed a tax return and, if qualified,
    received about $4.6 billion dollars in economic stimulus payments. An additional 24 percent
    of the 20 million individuals were claimed as dependents on someone else’s income tax
    return, which disqualified them from receiving a stimulus payment.

2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayers accounts.
3
  Stimulus-only returns are returns filed by individuals who are not required to file a tax return and are filed only to
claim the economic stimulus payment.
                                                                                                                 Page 3
                     Evaluation of Efforts to Ensure Eligible Individuals Received
                                  Their Economic Stimulus Payment



•   Initiating outreach efforts to assist individuals whose stimulus payments were returned as
    undeliverable. The IRS issued a press release on October 23, 2008, stating it had identified
    about 279,000 undelivered stimulus payments totaling approximately $163 million. These
    payments were mailed to individuals, but were returned as a result of an incorrect mailing
    address. The IRS was limited in what it could do to assist these taxpayers. Because the IRS
    did not have good contact information for these taxpayers, the only way to ensure taxpayers
    with undelivered economic stimulus checks received their payments was for the taxpayers to
    contact the IRS and change their addresses. The IRS launched a media campaign in
    mid-October 2008, to encourage these individuals to provide the IRS with a correct address.
    The IRS provided these individuals with a number of options to update their addresses,
    including calling the IRS or updating their addresses via the Internet by using the “Where’s
    My Refund” tool on IRS.gov. Our analysis of the IRS’ database of 288,878 undelivered
    stimulus payments indicates 33 percent (95,660) of the individuals with undelivered
    payments subsequently contacted the IRS and received an estimated $82 million in stimulus
    payments.4
•   Developing and implementing programming to ensure members of the military received
    the stimulus payments to which they were entitled. The IRS initiated two efforts to provide
    military taxpayers with their economic stimulus payments. In August 2008, the IRS issued
    recovery payments5 totaling approximately $6.2 million to 5,903 individuals who had not
    received a stimulus payment or the correct stimulus payment amount because the IRS had not
    properly included their nontaxable combat pay in its calculation of qualifying income.6
    In addition, subsequent to the passing of the Economic Stimulus Act of 2008, the President
    signed into law the Heroes Earnings Assistance and Relief Tax Act of 2008.7 This law
    enabled members of the military to receive stimulus payments even if they, their spouses, or
    their children did not have valid Social Security Numbers. On November 24, 2008, the IRS
    correctly issued recovery payments totaling almost $9 million to 8,490 members of the
    military.8




4
  Payments were either issued to the taxpayer or used to offset an outstanding debt.
5
  A recovery payment is a one-time payment issued to a specific group of taxpayers to correct one or more
conditions that prevented those taxpayers from receiving the economic stimulus payments to which they were
entitled.
6
  This recovery also affected individuals who are working in combat zones as contractors or Department of Defense
civilian employees.
7
  Pub. L. No. 110-245, 122 Stat. 1624 (2008).
8
  We identified 1,364 taxpayers who may have qualified for the Heroes Earnings Assistance and Relief Tax Act
of 2008 but were not part of the IRS’ recovery. We will continue to monitor these taxpayer accounts during
TY 2008 processing to ensure these individuals receive the correct Recovery Rebate Credit.
                                                                                                          Page 4
                     Evaluation of Efforts to Ensure Eligible Individuals Received
                                  Their Economic Stimulus Payment



•   Assisting individuals in resolving invalid Social Security Number issues that disqualified
    the individuals from receiving stimulus payments. Individuals who get married sometimes
    forget to notify the Social Security Administration of the change from their maiden name to
    their married name. When an individual uses his or her married name on his or her tax
    return, it does not match records the IRS receives from the Social Security Administration.
    The IRS validates Social Security Numbers listed on tax returns by matching the names and
    Social Security Numbers on the returns to Social Security Administration records. For these
    individuals, the match did not identify a valid Social Security Number. In October 2008, the
    IRS issued recovery payments totaling approximately $64.8 million to 52,575 individuals
    who had contacted the IRS during the processing of their tax returns to resolve their invalid
    Social Security Numbers.
In addition, the IRS initiated actions to address errors we brought to IRS management’s
attention. Addressing the errors we identified resulted in 274,611 individuals receiving
$105.5 million in economic stimulus payments to which they were entitled. These actions
included:
•   Issuing recovery payments to individuals whose child portion of the economic stimulus
    payment was not accurately computed. During a previous Treasury Inspector General for
    Tax Administration review9 where we evaluated the accuracy of IRS efforts to calculate the
    economic stimulus payment, we notified the IRS of errors in its computation of the child
    portion of the economic stimulus payment. Specifically, some taxpayers were not receiving
    the additional $300 for each qualifying child claimed on their tax returns. This resulted
    primarily because taxpayers and tax preparation software were not checking the Child Tax
    Credit qualifying child box on the tax returns for qualifying children. In response to our
    concerns, the IRS initiated programming to identify individuals who did not accurately
    receive the additional child portion of the stimulus payment. In July 2008, the IRS correctly
    issued recovery payments totaling $85.85 million to 218,533 individuals.
•   Issuing recovery payments to individuals who incorrectly reported their income. Millions
    of individuals who would not normally be required to file an income tax return had to file
    and report their qualifying benefits (i.e., Social Security and/or Veterans benefits) to receive
    an economic stimulus payment. In August 2008, we identified 137,538 stimulus-only returns
    in which the individuals did not receive a stimulus payment because they did not report
    enough qualifying income on their tax returns.10 Our analysis of a random sample of 20 of
    these tax returns identified that these taxpayers may be entitled to a stimulus payment based
    on information on their Information Returns (Form 1099 series). Based on our analysis, we


9
  Evaluation of the Computation of Economic Stimulus Payments (Reference Number 2008-40-174, dated
September 4, 2008).
10
   These individuals had no other tax or wages and appeared to not have been claimed as a dependent on someone
else’s tax return.
                                                                                                         Page 5
                  Evaluation of Efforts to Ensure Eligible Individuals Received
                               Their Economic Stimulus Payment



    notified the IRS that individuals may be inaccurately reporting their benefits on their
    stimulus-only tax returns. For example, individuals reported their monthly benefits instead
    of their annual benefits. In response, the IRS analyzed the 137,538 returns we identified and
    subsequently issued recovery payments to 56,078 individuals totaling $19.6 million. The
    IRS determined it had already assisted or was in the process of assisting another 29,227 of
    these individuals. For the remaining 52,233 individuals, the IRS confirmed that the
    individuals did not meet the stimulus payment minimum income qualification and as a result
    were not entitled to a stimulus payment.
Both the actions initiated by the IRS and in response to issues we raised ensured as many
individuals as possible received their economic stimulus payment in advance of filing their
TY 2008 tax returns.

The IRS Ensured Economic Stimulus Payments Were Not Issued After
December 31, 2008
The Economic Stimulus Act prohibits economic stimulus payments from being paid after
December 31, 2008. To ensure payments were not issued, the IRS developed computer
programs to identify taxpayer accounts with an economic stimulus payment that was unable to be
issued to the taxpayer. IRS programs identified 435,321 taxpayer accounts which contained an
economic stimulus payment credit that was not issued to the taxpayer. There are a number of
reasons an account would contain an economic stimulus payment credit. These include:
•   Taxpayers whose economic stimulus payments were returned to the IRS as undeliverable.
•   Taxpayers who were under criminal investigation.
Our independent identification of accounts that contained an economic stimulus payment credit
confirmed the accuracy of IRS programs in identifying these accounts. In addition, we
confirmed that the IRS correctly reversed these economic stimulus payment credits to ensure the
associated stimulus payments would not be issued after December 31, 2008. If these taxpayers
are eligible to receive a payment and did not receive one before December 31, 2008, the
individuals can claim the credit on their TY 2008 tax returns (generally filed between January
and April 2009).




                                                                                           Page 6
                     Evaluation of Efforts to Ensure Eligible Individuals Received
                                  Their Economic Stimulus Payment



                                                                                               Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to assess the adequacy of the IRS’ actions to ensure
eligible individuals received an economic stimulus payment. In addition, we evaluated
the controls in place to ensure economic stimulus payments were not issued after
December 31, 2008, as mandated by the Economic Stimulus Act of 2008.1
I.      Assessed the IRS’ actions to ensure individuals entitled to a stimulus payment received
        their payments before December 31, 2008.
        A. Analyzed 151 million taxpayer returns processed as of November 8, 2008, to monitor
           conditions identified in a prior audit.2 We also determined if new conditions
           developed subsequent to the completion of our prior audit work.
        B. Evaluated the IRS’ efforts to identify and issue economic stimulus recovery
           payments3 to individual taxpayers. We assessed the IRS’ efforts to issue recovery
           payments of $85.85 million for the child portion of the economic stimulus payment to
           218,533 individuals. We also assessed the IRS’ efforts to issue recovery payments of
           almost $9 million to 8,490 individuals entitled to an economic stimulus payment as
           part of the Heroes Earnings Assistance and Relief Tax Act of 2008.4
        C. Compared the income reported on the Information Returns (Form 1099 series) to
           the income reported on the tax return for a random sample of 20 of the
           164,805 stimulus-only returns in which the individual had been denied the economic
           stimulus payment for insufficient qualifying income. We reviewed returns to identify
           common errors in filing that may be used to determine if taxpayers incorrectly
           reported qualifying income. Our sample was selected randomly from returns
           processed during Processing Year 2008.
        D. Evaluated the IRS’ efforts to ensure claims for economic stimulus payments
           processed in the Accounts Management function were processed timely and the
           payment amounts were accurate. Our assessment included an evaluation of the


1
  Pub. L. 110-185,122 Stat. 613.
2
  Evaluation of the Computation of Economic Stimulus Payments (Reference Number 2008-40-174, dated
September 4, 2008).
3
  A recovery payment is a one-time payment issued to a specific group of taxpayers to correct one or more
conditions that prevented those taxpayers from receiving the economic stimulus payments to which they were
entitled.
4
  Pub. L. No. 110-245, 122 Stat. 1624 (2008).
                                                                                                         Page 7
                       Evaluation of Efforts to Ensure Eligible Individuals Received
                                    Their Economic Stimulus Payment



              processing of duplicate filed stimulus-only tax returns,5 Amended U.S. Individual
              Income Tax Returns (Form 1040X), injured spouse claims, and undelivered economic
              stimulus payments.
II.      Determined if the IRS’ actions were sufficient to ensure potentially qualified Social
         Security and Veterans Administration beneficiaries receive economic stimulus payments.
         We analyzed data for retired individuals who filed a TY 2007 tax return but did not
         receive an economic stimulus payment to determine why a payment was not generated by
         the IRS. We also analyzed stimulus-only tax returns where the taxpayer could be
         claimed as a dependent on someone else’s tax return and determined how many of the
         taxpayers that received the Information About Economic Stimulus Payments for Social
         Security, Veterans, and Other Beneficiaries (Package 1040A-3) subsequently filed a tax
         return.
III.     Evaluated the controls in place to ensure advanced economic stimulus payments were not
         issued after December 31, 2008, as mandated in the Economic Stimulus Act. We
         reviewed the IRS’ computer programming used to identify economic stimulus payments
         requiring a reversal. We also independently identified outstanding economic stimulus
         payments (credits) on the IRS Master File6 and compared our data to the accounts the IRS
         identified to ensure all outstanding credits were identified and reversed.




5
  Stimulus-only returns are returns filed by individuals who are not required to file a tax return and are filed only to
claim the economic stimulus payment.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                                 Page 8
                 Evaluation of Efforts to Ensure Eligible Individuals Received
                              Their Economic Stimulus Payment



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell Martin, Director
Deann Baiza, Audit Manager
Kathleen Hughes, Lead Auditor
Sharla Robinson, Senior Auditor
Van Warmke, Senior Auditor
James Allen, Information Technology Specialist




                                                                                     Page 9
                 Evaluation of Efforts to Ensure Eligible Individuals Received
                              Their Economic Stimulus Payment



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 10
                    Evaluation of Efforts to Ensure Eligible Individuals Received
                                 Their Economic Stimulus Payment



                                                                                        Appendix IV

                                  Outcome Measures

Throughout the course of our reviews of the implementation of the Economic Stimulus Act of
2008,1 we notified the IRS of conditions that impacted its ability to ensure eligible individuals
received an economic stimulus payment. The IRS took corrective action in advance of our report
to correct those conditions. This appendix presents detailed information on the measurable
impact the IRS’ corrective actions in response to our concerns had on tax administration. These
benefits will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; $85,850,008 in child-based economic stimulus
    payments issued to 218,533 individual taxpayers (see page 3).

Methodology Used to Measure the Reported Benefit:
During our previous review of the accuracy of IRS efforts to calculate the economic stimulus
payment,2 we notified the IRS of errors in its computation of the child portion of the economic
stimulus payment. Specifically, some taxpayers were not receiving the additional $300 for each
qualifying child claimed on their tax returns. This resulted primarily because taxpayers and tax
preparation software were not checking the Child Tax Credit qualifying child box on the tax
returns for qualifying children. In response to our concerns, the IRS initiated programming to
identify individuals who did not accurately receive the additional child portion of the stimulus
payment. In July 2008, the IRS correctly issued recovery payments totaling $85,850,008 to
218,533 individuals.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; $19,585,745 in economic stimulus payments
    issued to 56,078 Social Security and Veterans Administration beneficiaries (see page 3).




1
 Pub. L. 110-185,122 Stat. 613.
2
 Evaluation of the Computation of Economic Stimulus Payments (Reference Number 2008-40-174, dated
September 4, 2008).



                                                                                                    Page 11
                       Evaluation of Efforts to Ensure Eligible Individuals Received
                                    Their Economic Stimulus Payment



Methodology Used to Measure the Reported Benefit:
In August 2008, we identified 137,538 stimulus-only tax returns3 where individuals did not
receive a stimulus payment because they did not report enough qualifying income on their tax
returns.4 Our analysis of these returns determined these taxpayers may be entitled to a stimulus
payment based on information on their Information Returns (Form 1099 series). We notified the
IRS that retired individuals may be inaccurately reporting their benefits on their stimulus-only
tax returns. In response, the IRS analyzed the 137,538 returns we identified and subsequently
issued recovery payments to 56,078 retired individuals totaling $19,585,745.




3
  Stimulus-only tax returns are returns filed by individuals who are not required to file a tax return and are filed only
to claim the economic stimulus payment.
4
  These individuals had no other tax or wages and appeared to not have been claimed as a dependent on someone
else’s tax return.
                                                                                                               Page 12
